March 31, 2021
Via e-filing
Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, DC 20543
Re:

Belgau v. Inslee, No. 20-1120

Dear Mr. Harris:
On behalf of Respondent Washington Federation of State Employees, ASFCME Council
28, I respectfully move for a two-week extension of time, until May 12, 2021, for Respondents to
submit a response to the petition for certiorari in this matter. This request is being made because
I have deadlines to submit briefs in several other cases during the time period at issue. Counsel
for the other Respondents (Jay Inslee, Governor of the State of Washington, and the other State
officials) requests that the extension apply to all Respondents. Counsel for Petitioners has
confirmed that Petitioners do not oppose the requested extension.
By copy of this letter, I am serving counsel for all parties by e-mail and U.S. mail.
Sincerely,
/s/ Scott A. Kronland
Scott A. Kronland
Counsel for Respondent Washington Federation of
State Employees, ASFCME Council 28
cc:

James G. Abernathy, Counsel for Petitioners
via e-mail and U.S. Mail
Alicia O. Young, Counsel for State Respondents
via e-mail and U.S. Mail

